Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

81355
STATE OF NEW YORK,
SS:

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 23rd day of December 2019 deponent served 3 copies of the within

PETITIO NFOR A WRIT OF CERTIORARI
upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Nancy A. Brown
United States Securities & Exchange Commission
200 Vesey Street, Suite 400
New York, NY 10281
212-336-1023
brownn@sec.gov
Sarah Prins
United States Securities & Exchange Commission
100 F Street, N.E.
Washington, DC 20549
202-551-5159
prinss@sec.gov
staroselskyd@sec.gov

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on December 23, 2019, pursuant to Supreme
Court Rule 29.5(c]. All parties required to

be2:J:/:::.Xet)

~

Howard Daniels

Sworn to me this

December 23, 2019
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01OS6101366
Qualified in Kings County
ommission Expires November 10, 2023

Case Name: Gentile v. SEC
Docket/Case No.

